                                       SOCIAL SECURITY
MEMORANDUM

Date:      April 23, 2008                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Assessing the Application Controls for the Social Security Administration’s Modernized
           Claims System and National Disability Determination Services System (A-15-07-17155)


           OBJECTIVE
           We contracted with PricewaterhouseCoopers, LLP (PwC) to complete full-scope audits
           of the Social Security Administration’s (SSA) National Disability Determination Services
           System and Modernized Claims System in conjunction with the Government
           Performance and Results Act. Attached is the final report presenting the results of
           PwC’s review. For the applications included in this audit, PwC’s objectives were to:

           •   Assess the effectiveness of internal controls, both automated and manual, and test
               key controls over access controls, data input, data processing, data rejection, and
               data output as they relate to the performance indicators.

           •   Assess the overall reliability of the applications’ computer-processed data as they
               relate to the performance indicators. Data are reliable when they are complete,
               accurate, consistent and are not subject to inappropriate alteration.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                               Patrick P. O’Carroll, Jr.
           Attachment
             OFFICE OF
      THE INSPECTOR GENERAL


 SOCIAL SECURITY ADMINISTRATION

ASSESSING THE APPLICATION CONTROLS FOR
 THE SOCIAL SECURITY ADMINISTRATION’S
    MODERNIZED CLAIMS SYSTEM AND
  NATIONAL DISABILITY DETERMINATION
            SERVICES SYSTEM

       April 2008   A-15-07-17155



   AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      March 31, 2008

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Assessing the Application Controls for the Social Security Administration’s
           Modernized Claims System and National Disability Determination Services
           System (A-15-07-17155)


OBJECTIVE
The Government Performance and Results Act of 1993 (GPRA)1 requires that the
Social Security Administration (SSA) develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3 The majority of data used in the calculation and
measurement of performance indicators are generated from applications that support
the Agency's mission and objectives. Therefore, application control reviews are
essential in determining the completeness, accuracy, and validity of data.

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the applications included in this audit, our
objectives were to:
• Assess the effectiveness of internal controls, both automated and manual, and test
  key controls over access controls, data input, data processing, data rejection, and
  data output as they relate to the performance indicators.
• Assess the overall reliability of the applications’ computer-processed data as they
  relate to performance indicators. Data are reliable when they are complete, accurate,
  consistent and are not subject to inappropriate alteration. 4




1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO)-03-273G, Assessing Reliability of Computer Processed Data,
October 2002, p. 3.


Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                           1
BACKGROUND
We audited the following applications as they related to specific performance indicators
audited during FY 2007.

    Application                       Related Performance Indicators

    Modernized Claims System          •   Disability Determination Services (DDS) net
    (MCS)                                 accuracy rate (allowances and denials
                                          combined)
                                      •   Maintain the number of initial disability
                                          claims pending in the Disability
                                          Determination Services (DDS) (at/below the
                                          FY 2007 goal)
    National Disability               •   Number of SSI [Supplemental Security
    Determination Services                Income] disabled beneficiaries earning at
    System (NDDSS)                        least $100 per month
                                      •   Number of Supplemental Security Income
                                          (SSI) non-disability redeterminations
                                          processed

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI),
and SSI programs. The OASI program, authorized by Title II of the Social Security Act,
provides income for eligible workers and eligible members of their families and
survivors. 5 The DI program, also authorized by Title II of the Social Security Act,
provides income for eligible workers with qualifying disabilities and eligible members of
their families, before those workers reach retirement age. 6 The SSI program,
authorized by Title XVI of the Social Security Act, was designed as a needs-based
program to provide or supplement the income of aged, blind, and/or disabled individuals
with limited income and resources. 7

SSA systems play a key role in the creation, collection, and reporting of performance
indicator data for the Title II and Title XVI programs. MCS and NDDSS are two of these
systems. MCS is the front-end data processing system for OASDI used to determine a
claimant's eligibility, compute a monthly benefit amount, and establish a master record
for beneficiaries who file under Title II. It provides the initial transactional Title II data
used in the indicators, "Disability Determination Services (DDS) net accuracy rate
(allowances and denials combined)" 8 and "Maintain the number of initial disability claims

5
    The Social Security Act §§ 201-234, 42 U.S.C. §§ 401-434.
6
    Id.
7
    The Social Security Act §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
8
    SSA FY 2007 Performance and Accountability Report (PAR), p. 59.


Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                  2
pending in the Disability Determination Services (DDS) (at/below the FY 2007 goal)." 9
NDDSS is the data processing system that tracks receipt, development, and clearance
decisions of disability claims, both DI and SSI, and passes these data to the DI and SSI
systems. It provides the initial transactional data for the indicators, "Number of SSI
disabled beneficiaries earning at least $100 per month" 10 and "Number of Supplemental
Security Income (SSI) non-disability redeterminations processed." 11

RESULTS OF REVIEW
Our assessment identified issues with internal controls and data reliability for both
applications reviewed in this report. Specifically, we noted weaknesses in the operating
effectiveness of access controls related to application transactions. For NDDSS, we
also noted programmers had update access to production datasets. As a result of
these internal control weaknesses, we did not find the performance indicator data to be
reliable.

Modernized Claims System

Application Background

To determine eligibility, a claimant must file a claim with SSA. The individual submits a
claim at 1 of approximately 1,300 field offices (FO) or via the Internet. FO staff interview
the claimant and provide assistance with the completion of necessary applications.
Initial interviews are conducted in person or through telephone calls to obtain necessary
information, such as income, resources, and work history. In addition, basic medical
information concerning the disability, medical treatments, and identification of treating
sources is also obtained. This information may also be supplied via the Internet. The
FO staff inputs the application data into MCS.

MCS has built-in edits and controls to reduce the risk of incorrect data entry. These
include, but are not limited to, the following.

•      Surface edits send an error message on-screen if a field is not the required length, a
       mandatory field is not completed, data are repeated in a field, or nonmatching types
       of data are entered.
•      Relationship edit checks validate data entered by the FO staff on one screen with
       data entered on that screen (intrascreen edit) and all other input screens
       (interscreen edit).
•      A file to screen edit checks to ensure that data entered and transmitted agree with
       information contained in other SSA databases.
9
    Id. p. 55.
10
     SSA FY 2006 PAR, p. 83.
11
     SSA FY 2007 PAR, p. 70.


Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                   3
•     Adjudicative edits occur when data on the screen do not agree with the adjudicative
      rules for documentation and entitlement factors programmed into MCS.

If the applicant is filing a claim that involves disability, the applicant signs a medical
authorization release form. The FO staff mails these forms and medical evidence to the
DDS for medical determination. MCS electronically sends the applicants' data to
NDDSS. The DDS will review the medical evidence, make a disability determination,
and record the disability determination in the system, NDDSS, which will electronically
send the results to MCS.

Finally, MCS computes the monthly benefit payable based on the initial claim or the
post-entitlement event. 12 It will also create a Master Beneficiary Record (MBR), which
summarizes each beneficiary's Title II claims.

Findings

Internal Controls and Data Reliability

Our review of access controls noted that two users had excessive access to Customer
Information Control System (CICS) screen SC17 (Earnings) within the MCS and did not
require this access to perform their jobs. 13 CICS is a transaction processing system
designed for both on-line and batch activity. SSA management did not appropriately
restrict access to these transactions. The SSA Information System Security Handbook
(ISSH) states, "Access to all SSA functions associated with software or enterprise
systems must be managed based on need-to-know and least privilege. This specifically
includes changes/updates to software, production jobs, and supporting hardware
deployments. This access control maintenance policy must be applied across the SSA
enterprise." 14 In addition, Office of Management and Budget (OMB) Circular A-130
requires that agencies implement the practice of least privilege, whereby user access is
restricted to the minimum necessary to perform his or her job, and enforce a separation
of duties so steps in a critical function are divided among different individuals. It also
emphasizes the importance of management controls – such as individual accountability
requirements, separation of duties enforced by access controls, and limitations on the
processing privileges of individuals – to prevent and detect inappropriate or
unauthorized activities. 15


12
  If this is an initial claim, the initial claims operation application will compute the Primary Insurance
Amount and benefit amount; however, if the claim is a post-entitlement event, then the automated
earnings recomputation operation application recalculates Primary Insurance Amounts of beneficiaries to
give credit for additional Federal Insurance Contributions Act earnings.
13
  SSA management corrected both of the user's profiles to appropriately align with their job
responsibilities; therefore, this finding was remediated.
14
     SSA ISSH, Section 16.3, p. 49.
15
     OMB Circular No. A-130, Appendix III - Security of Federal Automated Information Resources, p. 5.


Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                               4
This issue was noted during the FY 2007 financial statement audit. Also, during the
audit timeframe, SSA management removed the excessive application business user
access to the MCS application. However, because this internal control weakness
existed during the period of review, we did not find the performance indicator data to be
reliable.

National Disability Determination Services System

Application Background

If a disability claimant satisfies all of the non-medical criteria, the case is referred to a
State DDS to determine whether the claimant satisfies the medical criteria. Information
regarding the disability claim is then entered into NDDSS. The following list
summarizes some of the more important functions that NDDSS provides for the DDS
offices and SSA.

•    Track the receipt, development, and clearance decisions of disability claims by the
     DDS offices. SSA uses this tracking information to assess the timeliness of the
     decisionmaking process by each DDS. SSA also uses the decisional data as the
     basis for several quality control and assessment activities.
•    Pass disability decisional updates for Title II and XVI claims to the respective
     payment systems. Once received from NDDSS, the respective system will then
     schedule the corresponding benefit payment for disbursement to the claimant.
•    Provide automated Federal sample and targeted profile selections of disability
     claims. The decisional data stored within NDDSS forms the basis for several quality
     assurance studies, such as pre-effectuation reviews, Quality Assurance reviews,
     and continuing disability reviews. Each one of these reviews is deemed by SSA to
     serve as a key monitoring activity to ensure the appropriate benefit payment to the
     corresponding claimants.
•    Provide management information to the Disability Operational Datastore, which SSA
     then uses to measure operational effectiveness across a number of attributes, such
     as DDS disability decision accuracy.

Findings

Internal Controls and Data Reliability

Our review of access controls revealed the following exceptions.

• Two users had excessive access to the NDDSS CICS transactions and did not
  require this access to perform their job responsibilities. 16



16
   SSA management appropriately updated all user access based on job responsibilities; therefore, this
finding was remediated.


Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                               5
• Programmers had update access to NDDSS production datasets and did not require
  this access to perform their job responsibilities 17

The SSA ISSH states, "Access to all SSA functions associated with software or
enterprise systems must be managed based on need-to-know and least privilege. This
specifically includes changes/updates to software, production jobs, and supporting
hardware deployments. This access control maintenance policy must be applied across
the SSA enterprise." 18 In addition, OMB Circular A-130 requires that agencies
implement the practice of least privilege, whereby user access is restricted to the
minimum necessary to perform his or her job, and enforce a separation of duties so
steps in a critical function are divided among different individuals. It also emphasizes
the importance of management controls – such as individual accountability
requirements, separation of duties enforced by access controls, and limitations on the
processing privileges of individuals – to prevent and detect inappropriate or
unauthorized activities. 19

These issues were noted during the FY 2007 financial statement audit. Also, during the
audit timeframe, SSA management removed the excessive application business user
and programmer access to the NDDSS application. However, because this internal
control weakness existed during the period of review, we did not find the performance
indicator data to be reliable.

CONCLUSION AND RECOMMENDATION
We recommend SSA:

1. Consistently restrict access to CICS screens and datasets for MCS and NDDSS
   based on the concept of least privilege access.

AGENCY COMMENTS
The Agency agreed with our recommendation. The Agency’s comments are included in
Appendix D.




17
   SSA management appropriately updated all user access based on job responsibilities; therefore, this
finding was remediated.
18
     SSA ISSH, Section 16.3, p. 49.
19
     OMB Circular No. A-130, Appendix III - Security of Federal Automated Information Resources, p. 5.


Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                               6
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)
                                                                        Appendix A
Acronyms
 CICS                 Customer Information Control System
 DDS                  Disability Determination Services
 DI                   Disability Insurance
 FO(s)                Field Office(s)
 FY                   Fiscal Year
 GAO                  Government Accountability Office
 GPRA                 Government Performance and Results Act of 1993
 IDMS                 Integrated Disability Management System
 ISSH                 SSA Information System Security Handbook
 MBR                  Master Beneficiary Record
 MCS                  Modernized Claims System
 MSSICS               Modernized Supplemental Security Income Claims System
 NDDSS                National Disability Determination Services System
 OASI                 Old-Age and Survivors Insurance
 OIG                  Office of the Inspector General
 OMB                  Office of Management and Budget
 PAR                  Performance and Accountability Report
 PwC                  PricewaterhouseCoopers
 SSA                  Social Security Administration
 SSI                  Supplemental Security Income
 U.S.C.               United States Code




Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)
                                                                                        Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act processes and relevant applications. This
was completed through research and questions to SSA management.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

•   Reviewed applicable laws, regulations and SSA policy.
•   Assessed the effectiveness of internal controls, both automated and manual, and
    tested key controls over access controls, data input, data processing, data rejection,
    and data output as they related to the performance indicators.
•   Assessed the overall reliability of the applications’ computer-processed data as they
    relate to the performance indicators. Data are reliable when they are complete,
    accurate, consistent and are not subject to inappropriate alteration. 1
We followed all performance audit standards in accordance with generally accepted
government auditing standards. In addition to these steps, we specifically performed
the following to test the applications in this report.

    • Inquired of personnel regarding application(s) that Modernized Claims System
      (MCS) and National Disability Determination Services System (NDDSS) interfaced
      with to report performance indicator results.
    • Completed an application controls review of MCS.
              o Inspected a selection of users to determine whether their access to
                 MCS transactions and datasets was appropriate.
              o Performed Computer Assisted Audit Tests over MCS data to determine
                 whether programmed edits and validations were operating as intended.
              o Inspected a selection of sysouts to determine whether the data
                 processed completely.
              o Inspected a selection of disability records to determine whether the
                 disability decision was accurately transferred from NDDSS to MCS.
    • Completed an application controls review of NDDSS.
              o Inspected a selection of users to determine whether their access to
                 NDDSS transactions and datasets was appropriate.
              o Inspected a selection of sysouts to determine whether the data
                 processed completely.
              o Inspected the interface records from NDDSS to the application
                 Disability Operational Data Store.


1
Government Accountability Office 03-273G, Assessing Reliability of Computer Processed Data, October 2002, p. 3.



Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                                  B-1
      • Inquired, inspected, and observed the key controls over the general control
        environment, specifically Entity-wide Security, Access Controls, Change Control,
        System Software, and Service Continuity for MCS and NDDSS.

We assessed the computer-processed data reliability as it relates to the performance
indicators in accordance with GAO guidance. 2 We determined that the performance
indicator data, which are processed through the MCS and NDDSS applications, in this
report are not sufficiently reliable given the audit objective and intended use of the
performance indicator data. We base this determination on the internal control testing
over the access controls, as previously discussed in this report. Because the use of
these performance data could lead to an incorrect or unintentional message, we
completed testing to determine whether a selection of users had appropriate access to
transactions and datasets specific to MCS and NDDSS to provide support for our
findings. Please see the MCS and NDDSS Findings sections on pages 4 and 5 of this
report for further discussion and recommendations regarding the reliability of the
performance indicator data.




2
    Id.


Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)             B-2
                                                                                                                                                           Appendix C

Title II and Title XVI Process Including Modernized Claims
System and National Disability Determination Services
System - Flowchart


                                                                                      NDDSS Process Flow

                                                                                                                     Legend:
                            Field Office
                              (FO)                                                                                   *RUC = Receipt, Update, Closure of Claim
                           Modernized Supplemental
 Integrated Disability
                            Security Income Claims        Modern Claims
 Management System
                              System (MSSICS)             System (MCS)
  (IDMS): CDRTTW
         IFOA                          DDTR                    TDTR



                                                                                                                                                            Backend
                                   Traffic File
                                                                                                                                                             MCS


                                                                                                                                                            MSSICS
                                TRINDP
                                                                                                                                                     48
                                 Batch                                                                                                             46        IDMS:    CDR – Continuing
                                Process                                                                                                                       CDR     Disability Review
                                                                                                              Traffic File                                    TTW
                                                                                                                                   TR Split         D                 TTW – Ticket to Work
                         VSAM              VSAM                                                      48                                           Im DS
                                                                      ND86                         46                                               ag                Disability
                                                                                                                                                       e
                  831                                                                                S                                                      DIODS     Operational Data
                                                                             National             DD ge                                                               Store
                Down-                             INDP                      Disability             Ima
                 load                                                     Determination
                     ND19                                                   Services
                    Triggers                                                 System
                                                                                                                                          Files                               States
                   download -                                               (NDDSS)
                                                                                                                                       Transmitted
                     02,16
                                                                                                                                        Mngmt.
                                                                                                                                        Reports
             Versa,                                          RUC
                                                                                                                                                                        Office of Disability
             Levy,
                                                                                                               DADSREPS                  Closed                                (OD)
            States&                                                          NDDSS                               Batch                   Claims
            Nebrask                                                          Master
               a                                                                                                                                                        Office of Quality
                                                              Prelim-                                                                     831
                                                                                                                                         Sample                        Performance (OQP)
                                                              01,06
                                                                                                                                                                        Federal Disability
                                                                          Once                                                                                        Determination Service
                                                                          Prelim                                DAFOCUS                                                     (FDDS)
                                                                                                                  Batch                 Closed/
                                                          MIDAS         Receipted -
                                                                                                                                        Pending
                                                         States &         02,16
                                                                                                                                        Claims
                                                           New                                                                                                        Regional Office (RO)
                                                           York       MIDAS – Modernized Interim Disability
                                                                      Adjudication System




Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                                                                                                                     C-1
Title II and Title XVI Process Including Modernized Claims
System and National Disability Determination Services
System - Narrative
•   Claims are submitted at SSA field offices or via the Intranet.
•   Field office staff will conduct an interview with the claimant and provide assistance in
    completion of necessary applications. The field office staff will input application data
    into Modernized Claims System (MCS) for Disability Insurance (DI), Title II, and the
    Modernized Supplemental Security Income (SSI) Claims System (MSSICS) for SSI,
    Title XVI.
•   The transfer transactions trigger the writing of the claim records to the Traffic file.
•   MCS, MSSICS, and the Integrated Disability Management System (IDMS) (claims
    regarding continuing disability) records are input into a batch job named TRINDP.
•   TRINDP is run nightly processing files from MCS, MSSICS and IDMS.
•   This creates two Virtual Storage Access Method files: the 831 Download and INDP.
    The 831 Download file is used by States running Versa and Levy and Nebraska to
    receipt claims. The INDP file is used by States running Modernized Interim
    Disability Adjudication System states and New York.
•   This file is used to create the prelim, which is an abbreviated version of the claim
    record on the NDDSS Master.
•   The disability determinations services (DDS) receipts the claim into the NDDSS; the
    prelim is converted to an active claim record.
•   Legacy system receipt functions correlate directly to the NDDSS Receipt screen.
•   Claim receipt, update, and closure transaction information is written real time to the
    Traffic File in two formats: the 4648 (Data Transmission file) or the DDS Image file.
•   A function called TRSPLIT extracts NDDSS records from the Traffic file, according to
    record types. During TRSPLIT the following occurs:
       o 4648 records update the backend systems of MCS, MSSICS, and IDMS with
         the claim receipt, update, and closure information.
•   DDS Image records are transmitted to the Disability Operational Data Store.
•   Extractions from the NDDSS Master are provided for two batch processes called
    DADSREPS and DAFOCUS.
•   DADSREPS is a daily batch process that produces the Management Information
    Reports for states that elect to receive the reports, the Closed Claim Records for
    Office of Disability, and the 831 Sample File. Two sample files are created from the
    831, including the Office of Quality Performance (The records provided are those
    meeting the random and targeted sample criteria) and the Disability Hearing Office
    (Random sample information provided to the Federal Disability Determination
    Service).
Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                    C-2
•   DAFOCUS is a weekly batch process that extracts closed and pending claims from
    the NDDSS master. The extract provides a mirror image of all claims in the form of
    two files, Closed and Pending.
•   Files transmitted from these batch jobs are available for States, the Office of
    Disability Systems, the Office of Quality Performance, Federal Disability
    Determination Service, and Regional Offices.




Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)            C-3
                                                                        Appendix D

Agency Comments




Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)
                                         SOCIAL SECURITY

MEMORANDUM



Date:      March 31, 2008                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Assessing the Application Controls for the
           Social Security Administration’s Modernized Claims System and National Disability
           Determination Services System” (A-15-07-17155)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comment on the recommendation is
           attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




           Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “ASSESSING THE APPLICATION CONTROLS FOR THE SOCIAL
SECURITY ADMINISTRATION’S MODERNIZED CLAIMS SYSTEM AND
NATIONAL DISABILITY DETERMINATION SERVICES SYSTEM” (A-15-07-17155)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation

Consistently restrict access to the Customer Information Control System (CICS) screens and
datasets for the Modernized Claims System (MCS) and the National Disability Determination
Services System (NDDSS) based on the concept of least privilege access.

Comment

We agree. We will consistently restrict access to CICS screens and datasets for MCS and
NDDSS based on the concept of least privileged access. We believe the value of the data in
these systems should be complete, accurate, and not subject to inappropriate alterations.

We will continue to educate staff on the merits of restricting the access of Disability
Determination Services (DDS) employees to our systems. We will make sure employees
understand that the best means of restricting systems access is to assign DDS employees security
profiles that adhere to our System Access Policy principles of least privilege and need to know
basis. We will issue instructions regarding the security profiles available for assignment to DDS
personnel. We will also seek input on ways to better communicate information on DDS security
profiles and proper assignment. This effort will help us to achieve consistency in restricting
access to our systems. We plan to complete these actions by March 31, 2008.




Assessing the Application Controls for SSA’s MCS and NDDSS (A-15-07-17155)                    D-2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                     Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                     Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                                Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
